APPENDIX A

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-10769
Non-Argument Calendar
________________________
D.C. Docket No. 1:15-cr-20820-BB-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
KHALED ELBEBLAWY,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(January 4, 2021)
Before WILLIAM PRYOR, Chief Judge, JORDAN and GRANT, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 2 of 6

Khaled Ebeblawy appeals an amended forfeiture order entered on remand
from this Court following convictions for conspiracy to commit health care fraud
and wire fraud, 18 U.S.C. § 1349, and conspiracy to defraud the United States and
pay health care kickbacks, id. § 371. Ebeblawy argues that the district court
violated the Sixth Amendment by not requiring a jury to find beyond a reasonable
doubt the amounts for his forfeiture order, erred in calculating the amounts
attributed to him, and erred by not reexamining his restitution order on remand.
The United States responds that Ebeblawy’s arguments are either barred by the law
of the case or outside the scope of the earlier remand. We affirm.
Elbeblawy worked as a managing employee at Willsand Home Health
Agency, Inc., from 2006 to 2009, an owner and operator of JEM Home Health
Care, LLC, from 2006 to 2011, and a manager/owner of Healthy Choice Home
Health Services, Inc., from 2009 to 2013. Although Willsand, JEM, and Healthy
Choice purported to provide home health care and services to Medicare
beneficiaries, Elbeblawy and his co-conspirators managed and operated them for
purposes of fraudulently billing Medicare for services that were neither medically
necessary nor provided and were procured through the payment of kickbacks.
We review de novo compliance with our mandate from an earlier appeal.
United States v. Amedeo, 487 F.3d 823, 829 (11th Cir. 2007). A district court must
implement “both the letter and spirit of the mandate.” Pelletier v. Zweifel, 987 F.2d
2

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 3 of 6

716, 718 (11th Cir. 1993). A district court on remand cannot examine a mandate
“for any other purpose than execution; or give any other or further relief; or review
it, even for apparent error, upon a matter decided on appeal; or intermeddle with it,
further than to settle so much as has been remanded.” United States v. Tamayo, 80
F.3d 1514, 1520 (11th Cir. 1996) (quotation omitted). Under the law-of-the-case
doctrine, “an issue decided at one stage of a case is binding at later stages of the
same case.” United States v. Escobar-Urrego, 110 F.3d 1556, 1560 (11th Cir.
1997). And we are bound to follow a prior-panel precedent unless and until it is
overruled by this Court sitting en banc or by the Supreme Court. United States v.
Vega-Castillo, 540 F.3d 1235, 1236 (11th Cir. 2008).
Elbeblawy’s argument that the Sixth Amendment required a jury to
determine the forfeiture amounts on remand fails. The Supreme Court has held that
“the right to a jury verdict on forfeitability does not fall within the Sixth
Amendment’s constitutional protection.” Libretti v. United States, 516 U.S. 29, 49
(1995). And we held in his earlier appeal, United States v. Elbeblawy, 899 F.3d
925 (11th Cir. 2018), cert. denied, 139 S. Ct. 1322 (2019), that Elbeblawy’s
argument was foreclosed by Libretti. Id. at 941. So both precedent and the law of
the case bar Elbeblawy’s argument that a jury was required to determine the
forfeiture amounts.

3

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 4 of 6

Settled law also governs our review of the amounts in a forfeiture order. We
review legal conclusions de novo and findings of fact for clear error. Id. at 933. A
district court, “in imposing [a] sentence on a person convicted of a Federal health
care offense, shall order the person to forfeit property, real or personal, that
constitutes or is derived, directly or indirectly, from gross proceeds traceable to the
commission of the offense.” 18 U.S.C. § 982(a)(7) (emphasis added). The
government bears the burden of proving the elements of criminal forfeiture by a
preponderance of the evidence. United States v. Dicter, 198 F.3d 1284, 1289–90
(11th Cir. 1999).
In Honeycutt v. United States, 137 S. Ct. 1626, 1633–35 (2017), the
Supreme Court held that a criminal forfeiture under a similar statute, 21 U.S.C.
§ 853(a), was limited to property that the defendant personally had obtained in
relation to the crime, and that joint and several liability did not apply. The Supreme
Court reasoned that section 853(a) requires that the defendant directly or indirectly
“obtain” property as the result of the crime, and a defendant does not “obtain”
property that was acquired by someone else. Id. at 1632–33. But it distinguished
the defendant from a “mastermind” of a conspiracy who obtains the property,
whether directly or indirectly. Id. at 1633. Since Honeycutt, we have held that
conspiracy leaders or “masterminds” who control criminal enterprises jointly
acquire the proceeds of the conspiracy with their co-conspirators. United States v.
4

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 5 of 6

Cingari, 952 F.3d 1301, 1305–06 (11th Cir. 2020) (finding defendants liable for a
forfeiture money judgment in the total amount of the proceeds generated by the
business that profited from the fraud, which they jointly owned).
We held in Elbeblawy’s earlier appeal that Honeycut applies to a forfeiture
under section 982(a)(7) because, like section 853, the statute reaches only property
traceable to the commission of the offense. Elbeblawy, 899 F.3d at 941. We
explained that section 982(a)(7) requires forfeiture of “property, real or personal,
that constitutes or is derived, directly or indirectly, from gross proceeds traceable
to the commission of the offense,” and section 982(a)(7) “incorporates many of the
provisions on which Honeycutt relied in rejecting joint and several liability.” Id.
(quotation marks omitted).
The district court did not clearly err in calculating the amounts in the
amended forfeiture order. It correctly applied Honeycutt and held Elbeblawy liable
only for the gross proceeds he directly or indirectly obtained from his role in the
conspiracy offense. The district court found that Elbeblawy was not jointly and
severally liable for the gross proceeds traceable to Willsand because he was only
an employee in Willsand’s health care fraud scheme, not a “mastermind” with a
controlling interest. The district court entered a forfeiture money judgment only in
the amount of $239,000 because Elbeblawy obtained gross proceeds in that amount
from his annual salary at Willsand as a direct result of the crime. The district court
5

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 6 of 6

also found that Elbeblawy owned a controlling interest in JEM and Healthy Choice
and served as the “mastermind” of those criminal enterprises. He directly and
indirectly benefited from the patient referrals and claims filed by his
co-conspirators and was liable for a forfeiture money judgment for the entire
amount of the gross proceeds traceable to those Medicare-fraud schemes. The
district court committed no error in finding that Elbeblawy indirectly obtained and
was liable for 90 percent of the JEM and Healthy Choice proceeds.
The district court also committed no error in not revisiting Elbeblawy’s
restitution order. We have held that a defendant is not entitled to “two bites at the
appellate apple” and is deemed to have waived his right to raise an argument that
he failed to raise in his first appeal. United States v. Fiallo-Jacome, 874 F.2d 1479,
1481–83 (11th Cir. 1989). Elbeblawy waived any challenge to the restitution order
by not raising it in his earlier appeal.
AFFIRMED.

6

USCA11 Case: 20-10769

Date Filed: 01/04/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

January 04, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-10769-DD
Case Style: USA v. Khaled Elbeblawy
District Court Docket No: 1:15-cr-20820-BB-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Bradly Wallace Holland, DD at 404-335-6181.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

